HHS/OIG-Audit--"Audit of Medicare Administrative Costs Claimed by
Blue Shield of California for the Period October 1, 1995 through November 30,
1996, (A-09-98-00095)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicare Administrative Costs Claimed by Blue Shield of California
for the Period October 1, 1995 through November 30, 1996," (A-09-98-00095)
October 1, 1999
Complete Text of Report is available in PDF format
(156 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
During the period October 1, 1995 through November 30, 1996, California Physicians'
Service, dba Blue Shield of California, claimed administrative costs totaling
$33,951,916. The administrative costs charged to Medicare were overstated by
$234,378. The $234,378 consisted of unreasonable increases in executive compensation
costs ($60,230), salaries over the Federal limit ($20,122), unallowable consulting
fees ($111,679), legal fees ($29,418), executive search fees ($4,829) and understated
complementary credits ($8,100). We recommended that Blue Shield reduce its Medicare
claims for the $234,378 in overstated costs. With the exception of our recommended
adjustment of $8,100 for the complementary insurance credit, Blue Shield concurred
with our audit findings.